No.

In the

Supreme Court of tfje fHniteb States;
Guangcun Huang,
Petitioner,
v.
Tim Hui-Ming Huang et ai.
Respondents.
PROOF OF SERVICE
I, GUANGCUN Huang, do declare that on this date, August 23, 2021. as required by
Supreme Court Rule 29, I have served the enclosed PETITION FOR A WRIT
OF CERTIORARI on counsel of record for each party to the above proceeding by
depositing an envelope containing the above document in the United States mail
properly addressed to the counsel as stated below and with first-class postage
prepaid.
The names and addresses of those served are as follows'

Amy Snow Hilton
Assistant Attorney General
Office of the Attorney General
P.O. BOX 12548
Austin, Texas 78711-2548 .
(512) 936-1327
Counsel ofrecord for Respondents

RECEIVED

I declare under penalty of perjury that the foregoing is true and corn

Ct. AUG 3 0 2021
•FF1CE OF THE CLERK
SUPREME COURT, US.

Executed on August 23. 2021.

(Signature)

